OIG Investigative Reports, Press Release: Harrisburg, PA September 09 2010 - Atlanta Man Charged With Fraudulently Obtaining Almost $300,000 in Educational Loans
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
U.S. Department of Justice
Middle District of Pennsylvania
William J. Nealon Federal Building
235 N. Washington Avenue
P.O. Box 309,  Suite 311
Scranton, PA 18503-0309
Phone: (570) 348-2800
Fax  (570) 348-2037 or (570) 348-2830
Ronald Reagan Federal Building
228 Walnut Street
P.O. Box 11754,, Suite 220
Harrisburg, PA 17108-1754
Phone: (717) 221-4482
Fax:  (717)  221-4493/ 221-2246 or (717) 221-4493
Herman T. Schneebeli Federal Building
240 West Third Street
Suite 316
Williamsport, PA 17701-6465
Phone: (570) 326-1935
Fax: (570) 326-7916
FOR IMMEDIATE RELEASE
September 09, 2010
CONTACT:   Peter J. Smith
U.S. Attorney
(717) 221-4482
ATLANTA MAN CHARGED WITH FRAUDULENTLY OBTAINING ALMOST $300,000 IN
EDUCATIONAL LOANS
The United States Attorneys Office for the Middle District of Pennsylvania announced today that
an Atlanta, GA man pled guilty in federal court today in Scranton to a charge of fraudulently
obtaining approximately $300,000 in educational loans.
Gerald Brown, age 36, of Atlanta, GA pled guilty before Senior United States District Court Judge
James M. Mtmley to making false statements in various applications to get federal and private
educational loans from 2005 through early 2009. Brown faces up to five years imprisonment and has
agree to make restitution in the amount of $296,369. Sentencing was deferred pending a pre-sentence
investigation.
According to United States Attorney Peter J. Smith, investigators with the United States
Department of Education's Office of Inspector General and the Commonwealth of Pennsylvania's
Pennsylvania Higher Education Assistance Agency (PHEAA) in Harrisburg deterruined that the
defendant had obtained numerous private and federal financial education loans through the use of
false information. Smith said it was determined that through false information on the various loan
applications the defendant obtained  $296,369 to which he was not entitled.
The case was investigated by the United States Department of Education's office of Inspector
General and the Investigative Services section of the Pennsylvania Higher Education Assistance
Agency. Assistant United States Attorney William A Behe has been assigned the prosecution of this
case.
***
Top
Printable view
Last Modified: 09/14/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov